No. 19-

IN THE

6uprente Court of the aluiteb Mateo
UPMC; UNIVERSITY OF PITTSBURGH PHYSICIANS,
D/B/A UPP DEPARTMENT OF NEUROSURGERY,
Petitioners,
v.
UNITED STATES OF AMERICA EX REL.
J. WILLIAM BOOKWALTER, III, M.D.; ROBERT J.
SCLABASSI, M.D.; ANNA MITINA,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,688 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 19, 2020.

Colin Casey Hoga
Wilson-Epes Printing Co., Inc.

